           sl:.1t VJ CEs


 '"
..
('
~                 ~            DEPARTMENT OF HEALTH
                                             HEALTH &
                                                    & HUMAN
                                                      HUMA SERVICES	
                                                            SERVICES                                                                        Office
                                                                                                                                            Office of
                                                                                                                                                   of Inspector
                                                                                                                                                      Inspector General
                                                                                                                                                                General

      ,~<~	
~
"ó
     -..                                                                                                                                    Washington,
                                                                                                                                            Washington, D.C.
                                                                                                                                                        D.C. 20201
                                                                                                                                                             20201
       :..i.ili\fdaa
     "~.":i'''VICES.ÚS'


                                                                                           FEB 1
                                                                                          FEB 1 772009

                                                                                                   2009



                           TO:
                           TO: Richard E. Besser,
                                     Richard         M.D.
                                             E. Besser, M.D.
                                               Acting Director

                                               Acting Director
                                               Centers for Disease
                                                           Disease Control
                                                                   Control and
                                                                           and Prevention
                                                                               Prevention


                           FROM:
                           FROM: Daniel         R. ~
                                  Daniel R. Levinson       ~ ~~
                                                     Levinson ~ ~ ~~

                                               Inspector General


                           SUBJECT: Review
                           SUBJECT:   Review
                                           of of Centers
                                              Centers forfor Disease
                                                          Disease    Controland
                                                                   Control   andPrevention
                                                                                 PreventionGrant
                                                                                            GrantCloseout
                                                                                                  CloseoutProcedures
                                                                                                           Procedures
                                               (A-02-07-02014)
                                               (A -02-07 -02014)


                           The attached final report provides the results                results of of our
                                                                                                        our review of  of the Centers
                                                                                                                              Centers for
                                                                                                                                      for Disease
                                                                                                                                          Disease Control
                                                                                                                                                  Control
                           and Prevention (CDC) grant            grant closeout
                                                                         closeout procedures.
                                                                                        procedures. PursuantPursuant to Federal
                                                                                                                           Federal regulations and policy,
                           CDC
                           CDC      is required,
                               is required, as a generalas  a general
                                                         matter,           matter,
                                                                 to close grants within to
                                                                                        180 close    grants
                                                                                            days after          within
                                                                                                       the end of 
    180 days after the end of the grant
                           period (the cutoffcutoff date).

                           Two CDC componentscomponents are responsible for administering grants.                    The Procurement
                                                                                                           grants. The    Procurement and  and Grants
                                                                                                                                               Grants
                           Office (Grants Office) is responsible for recording grant activity in the Grants                 Grants Management
                                                                                                                                    Management
                           Information
                           Information System. System. The Financial Financial Management
                                                                                  Management OffceOffice(FMO)
                                                                                                          (FMO) isis responsible
                                                                                                                       responsible for
                                                                                                                                     for tracking
                                                                                                                                          tracking and
                           recording       grant onactivity
                           recording grant activity               on the
                                                       the CDC general 
                   ledger and
                                                                            CDC general ledger       andinstructing
                                                                                                         instructingthe theDepartment's
                                                                                                                            Departent's Program
                                                                                                                                             Program
                           Support       Center,     Division
                           Support Center, Division of 
            of   Payment    Management      (DPM),   to  close  grants  in its Payment
                           Management System     System (payment system).               DPM is
                                                                             system). DPM     is responsible
                                                                                                  responsible for
                                                                                                                for recording
                                                                                                                    recording grant
                                                                                                                                 grant activity
                                                                                                                                        activity in the
                           payment system             and
                                          system and closing closing      grants after receiving
                                                                                       receiving closeout instructions from FMO. For a grant
                                                                                                   closeout  instructions    from  FMO.
                           to be closed in the      the payment
                                                         payment system, system, the
                                                                                  the grant award,
                                                                                             award, expenditure,
                                                                                                      expenditue, and and drawdown
                                                                                                                           drawdown amounts
                                                                                                                                        amounts must
                           be equal.

                           From September 1,     2002, through December 31, 2006, the Grants Office contracted out the
                                              1, 2002,                                                               the grant
                           closeout
                           closeout function.   Becauseofofbudgetary
                                     fuction. Because       budgetaryconstraints,
                                                                      constraints,the
                                                                                   theGrants
                                                                                      Grants Office
                                                                                             Office did
                                                                                                    did not
                                                                                                        not renew
                                                                                                            renew the
                           contract for 2007.

                           Our objective
                               objective was
                                         was to
                                             to determine why CDC grants identified by DPM as eligible for closeout as
                                                                                                                    as of
                                                                                                                       of
                           March 31, 2007, were  not
                                 31, 2007, were not  closed in the payment system by the cutoff dates.

                           The    2,740
                           The 2,740        grants identified
                                     grants identified                 byforDPM
                                                       by DPM as eligible    closeout as   eligible
                                                                                       as of 
      for closeout as of March 31, 2007, which had
                           unexpended
                           unexpended balances balances totaling
                                                              totaling moremore thanthan $245$245 million,  were not closed
                                                                                                   millon, were      closed in
                                                                                                                            in the
                                                                                                                               the payment
                                                                                                                                   payment system by
                           the
                           the   cutoff    dates
                                           dates forfor   several     reasons:
Page 2 – Richard E. Besser, M.D.


   •   Neither the Grants Office nor its contractor initiated closeout of 2,691 grants because,
       according to CDC officials, the grants were part of a backlog of grants awaiting closeout.
       Despite the backlog, the Grants Office suspended closeout actions from January 1
       through March 31, 2007, while it was developing closeout policies and procedures.

   •   Either the Grants Office or its contractor initiated closeout of 49 grants. However, the
       grants remained open in the payment system beyond the cutoff date because the grant
       award, expenditure, and drawdown amounts in the payment system differed or because
       the closeout code was not the final transaction in the payment system.

We recommend that CDC use the information in this report to ensure that grants are closed in a
timely manner and to eliminate the backlog of grants eligible for closeout.

In its comments on our draft report, CDC concurred with our recommendation and described
actions that it was taking or planned to take.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Joseph J. Green, Assistant Inspector General for Financial
Management and Regional Operations, at (202) 619-1157 or through e-mail at
Joe.Green@oig.hhs.gov. Please refer to report number A-02-07-02014 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF CENTERS FOR
    DISEASE CONTROL AND
 PREVENTION GRANT CLOSEOUT
        PROCEDURES




                    Daniel R. Levinson
                     Inspector General

                      February 2009
                      A-02-07-02014
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Two components of the Department of Health and Human Services (HHS), Centers for Disease
Control and Prevention (CDC), are responsible for administering grants. The Procurement and
Grants Office (Grants Office) is responsible for recording grant activity in the Grants
Management Information System. The Financial Management Office (FMO) is responsible for
tracking and recording grant activity on the CDC general ledger and instructing the HHS
Program Support Center, Division of Payment Management (DPM), to close grants in its
Payment Management System (payment system). DPM is responsible for recording grant
activity in the payment system and closing grants after receiving closeout instructions from
FMO.

From September 1, 2002, through December 31, 2006, the Grants Office contracted out the grant
closeout function. Because of budgetary constraints, the Grants Office did not renew the
contract for 2007.

Pursuant to Federal regulations and policy, CDC is required, as a general matter, to close grants
within 180 days after the end of the grant period (the cutoff date). For a grant to be closed in the
payment system, the grant award, expenditure, and drawdown amounts must be equal.

OBJECTIVE

Our objective was to determine why CDC grants identified by DPM as eligible for closeout as of
March 31, 2007, were not closed in the payment system by the cutoff dates.

SUMMARY OF FINDINGS

The 2,740 grants identified by DPM as eligible for closeout as of March 31, 2007, which had
unexpended balances totaling more than $245 million, were not closed in the payment system by
the cutoff dates for several reasons:

   •   Neither the Grants Office nor its contractor initiated closeout of 2,691 grants because,
       according to CDC officials, the grants were part of a backlog of grants awaiting closeout.
       Despite the backlog, the Grants Office suspended closeout actions from January 1
       through March 31, 2007, while it was developing closeout policies and procedures.

   •   Either the Grants Office or its contractor initiated closeout of 49 grants. However, the
       grants remained open in the payment system beyond the cutoff dates because the grant
       award, expenditure, and drawdown amounts in the payment system differed or because
       the closeout code was not the final transaction in the payment system.




                                                  i
RECOMMENDATION

We recommend that CDC use the information in this report to ensure that grants are closed in a
timely manner and to eliminate the backlog of grants eligible for closeout.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In its comments on our draft report, CDC concurred with our recommendation and described
actions that it was taking or planned to take. CDC’s comments are included as Appendix B.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Regulations and Departmental Policies Governing Grant Closeout............1
              Grant Life Cycle ..........................................................................................2
              Grants Office Closeout Process ...................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................3
               Objective ......................................................................................................3
               Scope............................................................................................................3
               Methodology ................................................................................................3

FINDINGS AND RECOMMENDATION.......................................................................4

          CLOSEOUT OF GRANTS NOT INITIATED .......................................................4

          CLOSEOUT OF GRANTS INITIATED BUT NOT COMPLETED .....................4

          RECOMMENDATION ...........................................................................................5

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS ......5

APPENDIXES

          A – NUMBER OF DAYS THAT GRANTS REMAINED OPEN AFTER
               CUTOFF DATES

          B – CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS




                                                                   iii
                                              INTRODUCTION

BACKGROUND

Two components of the Department of Health and Human Services (HHS), Centers for Disease
Control and Prevention (CDC), are responsible for administering discretionary grants 1 and
mandatory grants. 2 The Procurement and Grants Office (Grants Office) is responsible for
recording grant activity in the Grants Management Information System (grants management
system). The Financial Management Office (FMO) is responsible for tracking and recording
grant activity on the CDC general ledger and instructing the HHS Program Support Center,
Division of Payment Management (DPM), to close grants in its Payment Management System
(payment system). DPM is responsible for recording grant activity in the payment system and
closing grants after receiving closeout instructions from FMO.

Regulations and Departmental Policies Governing Grant Closeout

Pursuant to 45 CFR § 92.50(a), which applies to most HHS grants to State and local
governments, Federal agencies are required to close out the grant award when “all applicable
administrative actions and all required work of the grant has been completed.” Under 45 CFR
§ 92.50(b), grantees are required to submit all financial, performance, and other required reports
within 90 days after the expiration or termination of the grant. The Federal agency may extend
these reporting deadlines upon request. After receiving these reports, the Federal agency must
make all adjustments to allowable costs within 90 days (45 CFR § 92.50(c)). Similar regulatory
requirements at 45 CFR § 74.71 apply to the closeout of HHS grants awarded to nonprofit
organizations. Therefore, CDC generally must close discretionary and mandatory grants within
180 days after the end of the grant period (referred to as the “cutoff date” in this report). 3 We
recognize that there may be certain instances in which CDC, in accordance with regulatory
requirements or policy guidance, may need to take further administrative actions that would
prevent the closing of a specific grant within 180 days.




1
 Discretionary grants are awarded under programs that permit CDC, in accordance with legislation, to exercise
judgment in approving the project, project period, budget period, grantee, and award amount (HHS Grants Policy
Directive (GPD) 1.02). Examples of CDC discretionary grant programs include National Cancer Prevention and
Control, System-Based Diabetes Prevention and Control, and State Heart Disease and Stroke Prevention.
2
 Mandatory grants statutorily require a Federal agency to award funds “if the recipient (usually a State) submits an
acceptable State Plan or application and meets the eligibility and compliance requirements of the statutory and
regulatory provisions of the grant program. Mandatory grants include open-ended entitlement grants, closed-ended
grants, and block grants” (GPD 1.02). An example of a CDC mandatory grant program is Preventative Health and
Health Services.
3
 GPD 4.02.B.1.d interprets 45 CFR §§ 92.50 and 74.71 to require that grants generally be closed within 180 days of
the end of grant support. Although the specific closeout process described in this GPD applies only to discretionary
grants (and the GPD governing mandatory grants has not yet been issued), the 180-day cutoff date referred to in
GPD 4.02.B.1.d is an interpretation of regulations that apply to both mandatory and discretionary grants.


                                                          1
Grant Life Cycle

At the inception of a grant, the Grants Office issues a Notice of Grant Award to the grantee;
establishes the grant award in the grants management system; and transmits the grant award
information to FMO, which establishes the grant on the CDC general ledger. FMO then
transmits the grant award information to DPM, which establishes the grant in the payment
system.

The grantee draws down funds from the payment system electronically and reports expenditures
to DPM as well as to the Grants Office. Regardless of whether the grantee maintains
expenditure data on the cash or accrual basis of accounting, for block grant awards, 4 DPM
automatically records expenditures that equal drawdowns when the grantee requests funds. For
non-block-grant awards, the grantee is required to send DPM a quarterly cash-basis report of
expenditures, the PSC-272. Pursuant to 45 CFR §§ 74.71 and 92.50, the grantee also must report
final grant expenditures to the Grants Office within 90 days after the end of the grant period so
that the grant can be closed.

For a grant to be closed in the payment system, the award, expenditure, and drawdown amounts
must be equal. After receiving a closeout code, DPM’s practice is to leave the grant open for up
to one quarter until it receives the final PSC-272 from the grantee. If the grant award,
expenditure, and drawdown amounts remain in balance after the grantee submits the PSC-272
and if the closeout code is the final transaction on the grant, the grant automatically closes in the
payment system.

Grants Office Closeout Process

Before September 1, 2002, Grants Office personnel periodically initiated the closeout of grants
in accordance with general closeout procedures established in the HHS “Departmental
Accounting Manual.” The Grants Office lacked its own written procedures for closing grants.

From September 1, 2002, through December 31, 2006, the Grants Office contracted with
Tessada & Associates, Inc. (the contractor), to handle the grant closeout function. The contractor
adjusted grant awards in the grants management system to match final expenditure data received
from grantees. If the contractor did not receive final expenditure data from a grantee, the
contractor adjusted the grant award in the grants management system to match final expenditure
data reported to DPM by the grantee. The contractor then submitted this adjustment to FMO and
DPM. Finally, the contractor electronically submitted a closeout code through FMO to DPM so
that the grant could be closed on the CDC general ledger and in the payment system. The
contractor’s closeout procedures did not require the reconciliation of grant activity in the grants
management system to grant activity in the payment system before submitting closeout codes or
periodically accessing the payment system to determine whether DPM had actually closed grants
for which closeout had been initiated. Because of budgetary constraints, the Grants Office did
not renew its contractual arrangement with the contractor for 2007.

4
 Block grants are mandatory grants that typically are awarded to States or local governing agencies with minimal
Federal administrative restrictions so that grantees are free to target resources to meet the needs of their citizens
(GPD 1.02). An example of a block grant is the Healthy Heart Program.


                                                           2
From January 1 through March 31, 2007, the Grants Office suspended closeout actions and
focused on developing policies and procedures for reconciling grant activity in the grants
management system to grant activity in the payment system before closeout, as well as
procedures for following up to ensure that grants were closed in the payment system. As of
March 31, 2007, these policies and procedures had not been completed.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine why CDC grants identified by DPM as eligible for closeout as of
March 31, 2007, were not closed in the payment system by the cutoff dates.

Scope

Our audit covered 2,740 CDC grants with unexpended balances totaling $245,097,758 that, as of
March 31, 2007, had not been closed in the payment system by the cutoff dates. 5 We did not
perform an indepth review of the internal control structure of the Grants Office, the contractor,
FMO, or DPM. Instead, we gained an understanding of Grants Office, FMO, and DPM
procedures related to grant closeout. We also did not determine whether grantees had submitted
final financial reports to the Grants Office within 90 days after the end of the grant period.

We performed our fieldwork at CDC headquarters in Atlanta, Georgia, and at DPM headquarters
in Rockville, Maryland.

Methodology

To accomplish our objective we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   gained an understanding of the roles of the Grants Office, FMO, and DPM in the grant
        closeout process;

    •   obtained a file of 2,797 CDC grants and contracts with unexpended balances totaling
        $246,123,229 that DPM had identified as eligible for closeout as of March 31, 2007;

    •   eliminated from the file 57 contracts that were outside the scope of this review;

    •   identified a population of 2,740 grants (2,558 discretionary grants and 182 mandatory
        grants) with unexpended balances totaling $245,097,758 that, as of March 31, 2007, had
        not been closed in the payment system by the cutoff dates; and



5
 Unexpended balances represent the difference between the grant award and expenditure amounts in the payment
system.


                                                       3
   •   determined how long each of the 2,740 grants remained open in the payment system after
       the cutoff date.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

The 2,740 grants identified by DPM as eligible for closeout as of March 31, 2007, which had
unexpended balances totaling $245,097,758, were not closed in the payment system by the cutoff
dates for several reasons:

   •   For 2,691 grants, closeout was not initiated because, according to CDC officials, the
       grants were part of a backlog of grants awaiting closeout by the Grants Office or the
       contractor. Despite the backlog, the Grants Office suspended closeout actions from
       January 1 through March 31, 2007, while it was developing closeout policies and
       procedures.

   •   For 49 grants, closeout was initiated but not completed because the grant award,
       expenditure, and drawdown amounts in the payment system differed or because the
       closeout code was not the final transaction in the payment system.

Appendix A contains details on the number of days that grants remained open after the cutoff
dates.

CLOSEOUT OF GRANTS NOT INITIATED

Neither the Grants Office nor the contractor initiated closeout of 2,691 grants with unexpended
balances totaling $243,285,052. According to CDC officials, these grants were part of a backlog
of grants awaiting closeout. Also, from January 1 through March 31, 2007, when the contractor
was no longer responsible for the closeout function, the Grants Office did not initiate closeout of
the grants in the backlog because it was developing grant closeout policies and procedures. As
of March 31, 2007, the 2,691 grants had been open in the payment system for an average of 922
days beyond the cutoff dates.

CLOSEOUT OF GRANTS INITIATED BUT NOT COMPLETED

Either the Grants Office (before it contracted with the contractor) or the contractor (before its
contract with the Grants Office expired) initiated closeout of 49 grants with unexpended balances
totaling $1,812,706. However, the grants remained open in the payment system for an average of
1,150 days beyond the cutoff dates because neither the Grants Office nor the contractor
reconciled grant activity in the grants management system to grant activity in the payment
system before submitting closeout codes to DPM. Moreover, because the Grants Office and the


                                                 4
contractor did not periodically access the payment system to follow up on the status of grants for
which closeout had been initiated, neither knew whether DPM had actually closed the grants.

   •   DPM did not close 36 grants with unexpended balances totaling $1,812,706 because the
       grant award, expenditure, and drawdown amounts were not equal in the payment system.
       In some cases, the differences were less than $1. As of March 31, 2007, these grants had
       been open in the payment system for an average of 1,212 days beyond the cutoff dates.

   •   DPM did not close 13 grants with no unexpended balances because the closeout code was
       not the final transaction in the payment system. As of March 31, 2007, these grants had
       been open in the payment system for an average of 976 days beyond the cutoff dates.

RECOMMENDATION

We recommend that CDC use the information in this report to ensure that grants are closed in a
timely manner and to eliminate the backlog of grants eligible for closeout.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In its comments on our draft report, CDC concurred with our recommendation and described
actions that it was taking or planned to take. CDC’s comments are included as Appendix B.




                                                5
APPENDIXES
                                                                                 APPENDIX A


     NUMBER OF DAYS THAT GRANTS REMAINED OPEN AFTER CUTOFF DATES

For the 2,740 grants that should have been closed in the Payment Management System (payment
system), we calculated the number of days that the grants remained open from the cutoff dates
through March 31, 2007.

As shown in Table 1, the 2,691 grants for which closeout was not initiated remained open in the
payment system for an average of 922 days after the cutoff dates.

                       Table 1: Grants for Which Closeout Was Not Initiated
                                            No. of Grants Open After      Average
                                                Cutoff Dates for:        No. of Days
                             Unexpended                         Over       Since
               No. of          Balance      1–180    181–540      540      Cutoff
               Grants         Per DPM 1     Days       Days     Days       Dates
               2,691         $243,285,052     67       393      2,231        922

As shown in Table 2, the 49 grants for which closeout was initiated but not completed remained
open in the payment system for an average of 1,150 days after the cutoff dates.

                         Table 2: Grants for Which Closeout Was Initiated
                                            No. of Grants Open After      Average
                                                Cutoff Dates for:        No. of Days
                             Unexpended                         Over       Since
               No. of          Balance      1–180    181–540      540      Cutoff
               Grants         Per DPM       Days       Days     Days       Dates
                 49           $1,812,706      0         1          48      1,150




1
    DPM = Division of Payment Management.
APPENDIX B
  Page 1 of 2
APPENDIX B
  Page 2 of 2
